                                                              CE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: I05080039                                                                   Page 1 of 1

                                                                                                1

     This proactive review of expenditures1associated with foreign travel and participant support funding
     has reconciled the charges against the NSF account. It appears that the program averted ahy issues
     concerning embezzlement, theft, or diversion of grant funds; therefore, this case is closed.

                                                                                                1:
